Review, “NASA’s compliance with Office of Management and Budget Memorandum
M-06-16, ‘Protection of Sensitive Agency Information’” (ML-06-013, September 22,
2006)

As part of a President’s Council on Integrity and Efficiency (PCIE)/Executive Council on
Integrity and Efficiency (ECIE) project with OMB, we conducted a review to determine
whether NASA is implementing safeguards to protect sensitive Agency information in
accordance with OMB Memorandum M-06-16, “Protection of Sensitive Agency
Information,” June 23, 2006. OMB-06-16 provides specific actions Federal agencies
should take to protect personally identifiable information that is either accessed remotely
or physically transported outside of an agency’s physical perimeter. We found that,
overall, NASA had not fully complied with OMB M-06-16 requirements but is taking
steps to address Agency deficiencies. The NASA Office of the Chief Information Officer
is currently drafting corrective actions and milestones for protecting sensitive information
to ensure compliance with OMB M-06-16.

The memorandum contains NASA Information Technology/Internal Systems Data that is
not routinely released under the Freedom of Information Act (FOIA). To submit a FOIA
request, see the online guide.
